                     AUDIT REPORT



                        Audit of the Development of the
                       National Source Tracking System

                       OIG-06-A-10 February 23, 2006




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                        February 23, 2006




MEMORANDUM TO:             Luis A. Reyes
                           Executive Director for Operations



FROM:                      Stephen D. Dingbaum/RA/
                           Assistant Inspector General for Audits


SUBJECT:                   AUDIT OF THE DEVELOPMENT OF THE
                           NATIONAL SOURCE TRACKING SYSTEM
                           (OIG-06-A-10)


This report presents the results of the subject audit. Agency comments provided
at the exit conference on December 6, 2005, and the agency’s written response,
dated February 1, 2006, have been incorporated, as appropriate, into this report.
Appendix B contains the agency’s written comments and Appendix C contains
OIG’s responses.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken
or planned are subject to OIG follow-up as stated in Management Directive 6.1.

We appreciate the courtesies and cooperation extended to us by members of
your staff during the audit. If you have any questions or comments about our
report, please feel free to contact me on 301-415-5915 or Anthony Lipuma on
301-415-5910.

Attachment: As stated
Electronic Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration, and Chief Information Officer, OEDO
William M. Dean, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Michael R. Johnson, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Janet R. Schlueter, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
                                         Audit of the Development of the National Source Tracking System



EXECUTIVE SUMMARY

                 BACKGROUND

                 The U.S. Nuclear Regulatory Commission's (NRC) mandate to
                 protect public health and safety and the environment, and to
                 provide for the common defense and security, includes regulation
                 of medical, academic, and industrial uses of radioactive material
                 generated by or from a nuclear reactor. NRC regulations define this
                 radioactive material as byproduct material.1 Examples of byproduct
                 material include substances containing radioactive isotopes such
                 as cobalt-60, cesium-137, and iridium-192.

                 In accordance with section 274 of the Atomic Energy Act, NRC
                 relinquished its authority to regulate certain byproduct material to
                 33 States. The 33 States, which have entered into an agreement
                 assuming regulatory authority from NRC, are called Agreement
                 States.

                 NRC administers about 4,500 material licenses and the Agreement
                 States administer about 17,300 materials licenses for a total of
                 about 21,800 licenses. Each year, the agency issues
                 approximately 4,200 new licenses, license renewals, and license
                 amendments for nuclear materials licenses.

                 There is widespread use of byproduct material in the United States
                 and abroad for peaceful purposes. However, the events of
                 September 11, 2001, heightened the nation's concerns that the loss
                 or theft of radioactive material could lead to malicious use.

                 The International Atomic Energy Agency (IAEA) realized the need
                 for a categorization system for radioactive materials. As a result,
                 IAEA developed a categorization system that provides a relative
                 ranking and grouping of sources and practices on which regulatory
                 decisions can be based. In January 2004, the IAEA published the
                 Code of Conduct on the Safety and Security of Radioactive
                 Sources (Code of Conduct) that is the current standard the
                 international community uses to govern the safety and security of
                 radioactive material based on the categorization system.




1
 Byproduct material excludes uranium or transuranic isotopes which the NRC regulates as either source
materials or special nuclear material.


                                                    i
                   Audit of the Development of the National Source Tracking System



PURPOSE

The overall purpose of this audit was to determine whether NRC's
oversight of byproduct and sealed source materials provides
reasonable assurance that licensees are using the materials safely
and account for and control the materials. Because NRC is
planning to use the proposed National Source Tracking System
(NSTS), an agency database to track all phases of the life cycle of
byproduct material, our audit focused on the development of the
NSTS.

RESULTS IN BRIEF

NRC’s regulatory analysis guidance provides the framework for
making regulatory decisions. This framework includes basing
decisions on adequate information and identifying and evaluating
alternative approaches in the regulatory analysis. As proposed, the
NSTS may be inadequate because the supportive regulatory
analysis is based on unreliable data and does not consider viable
options as stated by the IAEA’s Code of Conduct. As a result,
NRC’s proposed tracking system, NSTS, may not account for all
byproduct material that represents a risk to the common defense
and security and public health and safety. Such risks could result
in economic, psychological, and physical harm to the United States
and public.

RECOMMENDATIONS

This report makes two recommendations to the Executive Director
for Operations: 1) to conduct a comprehensive regulatory analysis
for the NSTS that explores other viable options and 2) to validate
the existing data in the Interim Database.

AGENCY COMMENTS

On February 1, 2006, the Deputy Executive Director for Materials,
Research, State, and Compliance Programs provided comments
concerning the draft audit report. Appendix B contains NRC’s
formal comments and Appendix C contains OIG’s specific response
to each comment.




                             ii
                         Audit of the Development of the National Source Tracking System



ABBREVIATIONS AND ACRONYMS

       CAIB                Columbia Accident Investigation Board

       Code of Conduct     Code of Conduct on the Safety and Security of
                           Radioactive Sources

       DOE                 Department of Energy

       GAO                 Government Accountability Office

       IAEA                International Atomic Energy Agency

       NRC                 Nuclear Regulatory Commission

       NSTS                National Source Tracking System

       OIG                 Office of the Inspector General

       RDD                 radiological dispersal device




                                   iii
      Audit of the Development of the National Source Tracking System




[Page intentionally left blank.]




                iv
                                  Audit of the Development of the National Source Tracking System



TABLE OF CONTENTS

        EXECUTIVE SUMMARY..............................................................i

        ABBREVIATIONS AND ACRONYMS ........................................ iii

        I.     BACKGROUND...................................................................1

        II.    PURPOSE...........................................................................5

        III.   FINDING..............................................................................6

                      As Proposed, the NSTS May be Inadequate...............6

        IV.    SUMMARY AND CONCLUSION.......................................16

        V.     AGENCY COMMENTS .....................................................17


        APPENDICES

        A.     SCOPE AND METHODOLOGY ........................................19

        B.     AGENCY FORMAL COMMENTS .....................................21

        C.     DETAILED OIG RESPONSES TO
               AGENCY COMMENTS .....................................................27




                                             v
      Audit of the Development of the National Source Tracking System




[Page intentionally left blank.]




                vi
                                             Audit of the Development of the National Source Tracking System



I.     BACKGROUND

                   The U.S. Nuclear Regulatory Commission's (NRC) mandate to
                   protect public health and safety and the environment, and to
                   provide for the common defense and security, includes regulation
                   of medical, academic, and industrial uses of radioactive material
                   generated by or from a nuclear reactor. NRC regulations define this
                   radioactive material as byproduct material.2 Examples of byproduct
                   material include substances containing radioactive isotopes such
                   as cobalt-60, cesium-137, and iridium-192.

                   The term radioactive material describes any material emitting
                   radiation. Radioactive
                   material may be in the form of
                   a sealed source, which is the
                   term used to describe
                   radioactive material that is
                   permanently sealed in a
                   capsule or closely bonded in a
                   solid form. The term
                   radioactive source is also
                   used to describe a sealed
                   source. Additionally, bulk       Industrial Sealed Sources
                   material is radioactive material Source: Department of Energy
                   that can easily be subdivided
                   into smaller quantities.

                   The degree of potency of radioactive material is the activity level.
                   Activity level is most commonly measured in the United States by
                   the curie.3 Because material can have different activity levels per
                   unit weight or volume, the physical size of radioactive material does
                   not indicate the potential health risk. Some radioactive material is
                   found in nature, such as radium,4 but most radioactive material is
                   produced artificially in nuclear reactors or particle accelerators.
                   The term byproduct material describes the subset of radioactive
                   material that is artificially produced.




2
  Byproduct material excludes uranium or transuranic isotopes which the NRC regulates as either source
materials or special nuclear material.
3
  A curie is the traditional unit of activity. It is the measurement of the rate of decay, or transformation, of a
radionuclide.
4
  The Atomic Energy Act was amended in August 2005 to add any discrete source of radium-226 to NRC’s
jurisdiction of byproduct material.
                                                         1
                                       Audit of the Development of the National Source Tracking System



                Agreement States

                In accordance with section 274 of the Atomic Energy Act, NRC
                relinquished its authority to regulate certain byproduct material to
                33 States. The States must first demonstrate that their regulatory
                programs are compatible with NRC’s program and adequate to
                protect public health and safety. The 33 States, which have
                entered into an agreement assuming this regulatory authority from
                NRC, are called Agreement States.

        Figure 1

                Agreement and Non-Agreement States




                Source: www.hsrd.ornl.gov/nrc/home.html [as of February 2006]

                NRC administers about 4,500 material licenses and the Agreement
                States administer about 17,300 materials licenses for a total of
                about 21,800 licenses. Each year, the agency issues
                approximately 4,200 new licenses, license renewals, and license
                amendments for nuclear materials licenses.5




5
 Information Digest. 2005-2006 Edition. NUREG-1350, Volume 17. U.S. Nuclear Regulatory Commission,
July 2005.
                                                 2
                   Audit of the Development of the National Source Tracking System



       Uses of Byproduct Material

There is widespread use of byproduct material in the United States
and abroad for peaceful purposes. Commercial licensees use
byproduct material in areas such as industrial radiography,
manufacture of gauging devices, gas chromatography, and well
logging. Byproduct
material is also used by
the general public in
various consumer
products, such as smoke
detectors, “Exit” signs,
static eliminators, and
luminous watch dials.
Medical licensees use
byproduct material for the An industrial radiography device
diagnosis or treatment of     Source: Department of Energy
patients in hospitals or
physicians' offices, with an estimated 10 to 12 million clinical
procedures performed annually. Colleges, universities, and other
academic institutions use byproduct material in course work and
research.

       Aftermath of 9/11

The events of September 11, 2001, heightened the nation's
concerns that the loss or theft of radioactive material could lead to
malicious use in a radiological dispersal device (RDD). An RDD,
also known as a dirty bomb, is a conventional explosive that
incorporates radioactive material and releases it on detonation.
The major purpose for an RDD is to create terror and disruption,
not to cause death by radiation.

In July 2002, the Department of Energy (DOE) and NRC
established an Interagency Working Group on RDDs to cooperate
on areas where immediate progress towards the control of
radioactive material could be achieved. One area that the group
examined was options for establishing a national source tracking
system because NRC’s regulations do not require licensees to
report radioactive material inventories to NRC. The DOE/NRC
Working Group recommended that NRC develop a tracking system
to better understand and monitor the location and movement of
certain radioactive sources.




                             3
                                              Audit of the Development of the National Source Tracking System



                             IAEA Categorization System

                   The International Atomic Energy Agency (IAEA)6 realized that it
                   needed a categorization system for radioactive materials. In July
                   2003, IAEA issued a technical document7 on the Categorization of
                   Radioactive Sources. The purpose
                   of IAEA’s technical document was to
                   provide a fundamental and
                   internationally harmonized basis for
                   risk-informed decision making. IAEA
                   noted that high activity sources,8 “if
                   not managed safely or securely, can
                   cause severe deterministic effects9
                   to individuals in a short period of      IAEA Flag
                   time, whereas low activity sources are Source: www.iaea.org
                   unlikely to cause such effects.” As a
                   result, IAEA developed a categorization system that provides a
                   relative ranking and grouping of sources and practices on which
                   regulatory decisions can be based. In January 2004, the IAEA
                   published the Code of Conduct on the Safety and Security of
                   Radioactive Sources (Code of Conduct) that is the current standard
                   the international community uses to govern the safety and security
                   of radioactive material based on the categorization system.




6
   The IAEA is part of the United Nations and is recognized as the world's center of nuclear cooperation and
works for the safe, secure, and peaceful use of nuclear technologies.
7
   IAEA TECDOC-1344, Categorization of Radiation Sources, July 2003.
8
   The term high activity sources refers to the radioactive material in a range of radionuclides, forms, and
quantities that needs to be considered in IAEA’s categorization system.
9
   A deterministic effect is fatal or life threatening or results in a permanent injury that decreases the quality of
life.
                                                         4
                            Audit of the Development of the National Source Tracking System



II.   PURPOSE

          The overall purpose of this audit was to determine whether NRC's
          oversight of byproduct and sealed source materials provides
          reasonable assurance that licensees are using the materials safely
          and account for and control the materials. Because NRC is
          planning to use the proposed National Source Tracking System
          (NSTS), an agency database to track all phases of the life cycle of
          byproduct material, our audit focused on the development of the
          NSTS.




                                      5
                                         Audit of the Development of the National Source Tracking System



III. FINDING

      As Proposed, the NSTS May be Inadequate

        NRC’s regulatory analysis guidance provides the framework for making
        regulatory decisions. This framework includes basing decisions on
        adequate information and identifying and evaluating alternative
        approaches in the regulatory analysis. As proposed, the NSTS may be
        inadequate because the supportive regulatory analysis is based on
        unreliable data and does not consider viable options as stated by the
        IAEA’s Code of Conduct. As a result, NRC may not account for all
        byproduct material that represents a risk to the common defense and
        security and public health and safety. Such risks could result in economic,
        psychological, and physical harm to the United States and public.

                          Regulatory Analysis Guidance

                 A regulatory analysis10 is a structured evaluation of all relevant
                 factors associated with making a regulatory decision. To ensure
                 that NRC's regulatory decisions support its statutory responsibilities
                 and are based on adequate information, NRC issued Regulatory
                 Analysis Guidelines of the U.S. Nuclear Regulatory Commission.11
                 NRC also issued the Regulatory Analysis Technical Evaluation
                 Handbook12 to implement the policies in its guidelines.

                 Identifying and evaluating alternative approaches is a key element
                 in meeting the letter and spirit of NRC's regulatory analysis policy.
                 A broad and comprehensive list of alternatives should be
                 developed, and a preliminary analysis of the feasibility, values, and
                 impacts of each alternative should be performed. Some
                 alternatives may be eliminated for a variety of reasons. However,
                 the regulatory analysis document should list all alternatives
                 identified and considered, and provide a brief explanation of the
                 reasons for eliminating certain alternatives during the preliminary
                 analysis. IAEA’s Code of Conduct provides a basis and
                 alternatives for controlling radioactive sources.




10
   NRC does not have a statutory mandate to conduct regulatory analyses; however, it voluntarily began
performing them in 1976.
11
   NUREG/BR-0058, Revision 4, September 2004.
12
   NUREG/BR-0184, January 1997.
                                                    6
                                           Audit of the Development of the National Source Tracking System



                            IAEA Code of Conduct

                    The Code of Conduct applies to all
                    radioactive sources that may pose a
                    significant risk to individuals, society, and
                    the environment. It provides guidance to
                    minimize the likelihood of loss of control of
                    radioactive sources and to provide
                    measures to reduce the possibility of
                    malicious acts. Through the Code of
                    Conduct, IAEA's overall strategy is to
                    assist Member States13 to create and
                    strengthen national regulatory
                    infrastructures to ensure that significant
                    radioactive sources are localized,
                    registered, secured, and controlled from
                                                                  Source: www.iaea.org
                    "cradle to grave."

                    The objectives of the Code of Conduct are to -

                      1. achieve and maintain a high level of safety and security of
                         radioactive sources, and

                      2. prevent unauthorized access or damage to, and loss, theft or
                         unauthorized transfer of, radioactive sources.

                    To help meet these objectives, the IAEA recommends in the Code
                    of Conduct that every Member State establish a national register of
                    radioactive sources. While the IAEA classifies sources into 5
                    categories, it notes that sources in categories 1 through 3 are
                    designated as varying degrees of dangerous. IAEA defines a
                    dangerous source as: “A source that could, if not under control,
                    give rise to exposure sufficient to cause severe deterministic
                    effects.” [See Figure 2 for details.]




13
     The IAEA refers to its member countries as States. The United States is an IAEA member.
                                                     7
                          Audit of the Development of the National Source Tracking System



Figure 2

      Categorization of Radioactive Sources

           Category   Relative Radiation Hazard
               1      Personally Extremely Dangerous
               2      Personally Very Dangerous
               3      Personally Dangerous
               4      Unlikely to be Dangerous
               5      Not Dangerous
                      Source: IAEA-TECDOC-1344

      The Code of Conduct states that, as a minimum (emphasis added),
      national registers should include categories 1 and 2 radioactive
      sources. Further, countries should devote appropriate attention to
      the regulation of other potentially harmful radioactive sources.
      While the Code of Conduct does not specifically state that bulk
      material should be tracked, it does state that there may be
      circumstances where such material should be managed in
      accordance with the objectives of the Code of Conduct.

      To highlight the options implied in the Code of Conduct, the IAEA
      recognized France’s nuclear material program for having
      implemented a system for controlling radioactive material that could
      be used as a model for other countries. The French system of
      radioactive material oversight is a life cycle approach which
      includes tracking radioactive material from manufacture until
      disposal. The French system tracks Code of Conduct categories 1
      through 5 radioactive sources and includes bulk materials.

      With respect to source tracking, the French system requires that
      each transfer or acquisition be reported to its computerized
      database. Through this system, France intends to oversee source
      transfers, create a national inventory, and track the inventory and
      movement of sources in Code of Conduct categories 1 through 5.

              As Proposed, the NSTS May Be Inadequate

      NRC is proposing to build the NSTS, a web-based system that will
      contain cradle-to-grave information on high-risk sealed sources.
      NRC’s qualitative values for the NSTS include –

      •    improve security for nationally tracked sources,
      •    improve the understanding of the location of nationally tracked
           sources,
      •    improve regulatory efficiency,


                                    8
                                           Audit of the Development of the National Source Tracking System



                  •   enhance NRC’s ability to promote and maintain the common
                      defense and security, and
                  •   increase public confidence.

                  While the proposed NSTS would greatly improve NRC’s data on
                  licensed radioactive material, it may be inadequate. Under its
                  current regulations, NRC’s licensees are to provide data to the
                  agency only on the types and quantities of nuclear material that
                  they are licensed to possess – not what they actually have in
                  inventory. Furthermore, NRC does not maintain actual information
                  on Agreement State licensees – that is the responsibility of each of
                  the 33 Agreement States. To address this situation, NRC is
                  proposing to amend its regulations to implement the NSTS. Under
                  this amendment, NRC and Agreement State licensees will be
                  required to report information on the manufacture, transfer, receipt,
                  and disposal of sealed sources at or above the Code of Conduct
                  Category 2 threshold. Because NRC’s proposed NSTS will include
                  transaction tracking features, it will be more than a national register.
                  However, as proposed the NSTS will not include source tracking
                  thresholds beyond the minimum requirement set forth in the IAEA’s
                  Code of Conduct.

                  In a recent report,14 the Government Accountability Office (GAO)
                  found that, as proposed, NSTS (a national registry) would be of
                  little use to DOE in its efforts for the recovery and disposal of
                  unwanted sealed radiological sources. GAO reported that as
                  presently designed, NSTS will only track individual sources with
                  high radioactivity concentrations and will not include essentially all
                  of the sources of lesser radioactivity that DOE has recovered. The
                  GAO report also stated that the combined activity posed from the
                  individual sources poses enough of a safety and security risk to
                  warrant their recovery by DOE – but the sources will not be tracked
                  in NSTS.

                  In September 2005, the Health Physics Society15 sent a letter to
                  NRC stating its belief that the NSTS should result in enhanced
                  public health and safety as well as national security. However, the
                  Society believes that the proposed NSTS will fall short of this goal
                  because it will only track Code of Conduct sources at or above
                  Category 2 and will not include Category 3 sources which IAEA
                  terms as being dangerous.




14
   Nuclear Security: DOE Needs Better Information to Guide Its Expanded Recovery of Sealed Radiological
Sources. GAO-05-967, September 2005.
15
   The Health Physics Society is an independent scientific organization of professionals in radiation safety.
                                                      9
                                            Audit of the Development of the National Source Tracking System



                           Data Used for the Regulatory Analysis is Unreliable

                  Because NRC did not have information regarding the sources and
                  quantities possessed by licensees, the Commission directed NRC
                  staff to collect data on a one-time basis. In November 2003, NRC
                  requested licensees to report any single source equal to or larger
                  than Code of Conduct Category 2 values. Licensees were also
                  asked to report the aggregation16 of multiple co-located sources
                  that equaled or exceeded Category 2 values. In its instructions to
                  licensees, NRC defined co-location as sources that can be
                  accessed by breaching a single security barrier (e.g., a locked door
                  at the entrance to a storage room). Sources behind an outer
                  barrier should be aggregated separately from those behind an inner
                  barrier (e.g., a locked source safe inside the locked storage room).

                  The Commission decided that until the NSTS is implemented, NRC
                  will maintain an interim inventory of sources at or above Code of
                  Conduct Category 2 values that will be updated annually. As a
                  result, NRC established the Interim Database and in January 2005,
                  the agency again began querying all licensees authorized to
                  possess these sources. NRC instructed licensees that future
                  rounds will be similar, but will not include aggregation of co-located
                  sources.

                  In developing the NSTS regulatory analysis, NRC staff based their
                  review on the first round of data collected in the Interim Database
                  and their best judgment. The Interim Database contained
                  information on about 3,600
                  Category 1 and/or 2 sources.17
                  Yet, staff estimated that licensees
                  possess approximately 75,000
                  Category 1 and/or 2 sources. Staff
                  members believe that a large part
                  of the difference between the
                  number of sources in the Interim
                  Database and their estimate is
                  attributed to the way irradiators
                  and gamma knifes were counted in
                  the Interim Database. That is,
                  these devices were treated as
                  single sources in the Interim
                  Database, when actually the devices Gamma Beam Irradiator
                                                           Source: Hopewell Designs, Inc.
                  could each contain from a few to
                  over 1,500 individual sources. An NRC staff member said that
16
   Aggregation is two or more sources that are in close proximity and their total activity is at or above a
specified Code of Conduct category threshold.
17
   Regulatory Analysis for the Proposed Rule on National Source Tracking of Sealed Sources – 10 CFR
Parts 20, 32, and 150; Draft Report; April 28, 2005; page 7, section 3.2.2.2
                                                      10
                   Audit of the Development of the National Source Tracking System



overall the data in the Interim Database is probably accurate within
a factor of 10. A factor of ten means that the data could be off by a
multiple of ten. For example, if the database indicated 3,600
sources, one could reasonably expect that the actual number of
sources would be between 360 and 36,000. Therefore, NRC
cannot reasonably estimate the number of radioactive sources in
the United States for each of the Code of Conduct categories.

       Viable Options Not Considered

NRC staff conducted a regulatory analysis to evaluate the values
and impacts associated with two regulatory options to address the
tracking of radioactive material. Option 1 was to take no action.
Option 2 was to develop the NSTS including the inventory of Code
of Conduct Category 1 and/or 2 of nationally tracked sealed
sources. As of the date of this audit report, the regulatory analysis
for the NSTS that is publicly available is labeled as a draft
document and is dated April 28, 2005.

In August 2003, before developing its regulatory analysis, NRC had
already committed to Congress that it would develop a requirement
for tracking Code of Conduct sources. As a result, Option 1 (no
action) of the regulatory analysis really was not an alternative.
Therefore, in reality, NRC staff provided agency decision-makers
with only one option – develop NSTS to track sealed sources at or
above the Category 2 threshold. Staff did not provide decision-
makers with other options such as tracking radioactive material
beyond Category 2, including the aggregation of co-located
sources, or tracking bulk material. Furthermore, a consideration
regarding the acquisition of sources by a malevolent party was not
documented in the regulatory analysis.

       Tracking Beyond Category 2

The regulatory analysis does not offer options implied in the Code
of Conduct such as tracking radioactive material to categories lower
than the Category 2 threshold. Agency managers and staff were
unable to provide the number of sources in the United States for
each category. One NRC official offered that there are many Code
of Conduct Category 3 sources, and another manager said that if
Category 3 sources were included in NSTS, the numbers would be
“significantly expanded.” Yet, another staff member opined that
some people are overestimating the number of Category 3 sources.

NRC staff did not conduct a formal analysis to determine the
number of sources or feasibility of tracking radioactive material
beyond Category 2.

                            11
                                   Audit of the Development of the National Source Tracking System



             Including Source Aggregation and Bulk Material

      The Code of Conduct states that in addition to the categorization of
      sources, appropriate attention should be given to the aggregation of
      lower activity sources. Yet, the regulatory analysis does not
      consider tracking sources that are in a single storage or use
      location where the sources are in close proximity and their total
      activity is at or above a specified Code of Conduct category
      threshold. This practice is known as aggregation.

      Figure 3 provides an example of a fundamental problem that can
      occur when aggregation is not considered in a transaction involving
      radioactive material. Cobalt-60 is used in this example. Per the
      Code of Conduct, the Category 2 reporting threshold for Cobalt-60
      is 8 curies. Therefore, a transaction involving one Cobalt-60 source
      at 10 curies would be tracked in the NSTS because the single
      source is greater than the Category 2 threshold. However, a
      transaction involving fifty Cobalt-60 sources at 7 curies each would
      not be tracked in the NSTS because the 7-curie individual sources
      fall below the Category 2 threshold - - not withstanding the fact that
      the total activity of sources in this transaction is 350 curies.

Figure 3
             Lack of Aggregation

            Boston                                                      New York
                              1 Cobalt-60 Source
                                 @ 10 Curies

                                  Tracked by NSTS




                     Boston                                                New York
                                                        50 Cobalt-60 Sources
                                                           @ 7 Curies Each
                                                          (350 Curies Total)




                                             Not Tracked by NSTS




      Additionally, NRC recently developed its Export and Import Rule,
      which takes into consideration radioactive material associated with
      Code of Conduct categories 1 and 2. The new rule goes beyond
      the Code of Conduct recommendation to track sealed sources and
      includes the export and import of bulk material. Further, this newly
      developed rule requires that licensees report to NRC when they
      export or import radioactive material of concern that aggregates to
      or above the Category 2 threshold. Figure 4 provides an example
      of what can occur when aggregation is not considered in domestic
      tracking. Cobalt-60 is used in the example. NRC’s reporting
                                                   12
                                                   Audit of the Development of the National Source Tracking System



                 threshold for Category 2 (based on the Code of Conduct Category
                 2 threshold) is 8 curies. Therefore, in accordance with NRC’s
                 Export and Import Rule, a transaction involving ten Cobalt-60
                 sources at 7 curies each would be tracked to the United States
                 border. However, once the Cobalt-60 sources are in the United
                 States, the sources would no longer be tracked, because the ten 7-
                 curie individual sources fall below the Category 2 threshold. NRC’s
                 proposed NSTS rule, which does not include the tracking of bulk
                 material or aggregation, is not consistent with its Export and Import
                 Rule.

        Figure 4

                            Export and Import Rule vs. Proposed NSTS Rule
                                                    Ukraine

                                                                        R ep
                                                                               orte
                                                                                      da                      New York
                                                                                           s Im
                                                                                                  p or
                                                                                                         t
                         50 Cobalt-60 Sources
                            @ 7 Curies Each
                           (350 Curies Total)


                                                                                          king
                                                                                     Trac
                                                                                 rce
                                                                          So u
                                                                      nal
                                                           by   Natio
                         Boston                        ked
                                                  Trac
                                           N ot




                                          Not Tracked by National Source Tracking

                                                                                                             Washington, DC



                          Malevolent Uses Not Considered

                 When developing tracking options (e.g.,
                 tracking beyond Category 2, aggregation, bulk
                 material), a consideration that should be
                 included in the regulatory analysis is the
                 acquisition of sources by a malevolent party
                 through a series of apparently routine
                 byproduct transactions. Traditionally, security
                 requirements for radioactive sources were
                 focused on petty theft or accidental access to
                 radioactive materials. However, due to the
                 September 11, 2001, terrorist attacks, a new        Source: www.9-11
                 range of security threats emerged. One such         commission.gov/
                 example is the diversion of radioactive
                 materials from legal to illegal and criminal uses - such as terrorist
                 violence. The 9/11 Commission Report18 noted the threat of a

18
  The President of the United States and Congress created the National Commission on Terrorists Attacks
(9/11 Commission). That Commission produced the authoritative review of the attacks of September 11,
2001, and published their final report public report on July 22, 2004.
                                                                    13
                                        Audit of the Development of the National Source Tracking System



                 terrorist cell – a small group composed of intelligent and dedicated
                 individuals. Such a cell is patient and seeks to operate without
                 detection by government or law enforcement officials. Given this
                 profile, a terrorist cell may attempt to accumulate radioactive
                 sources through normal commercial means for apparently legal
                 purposes. In an effort to avoid detection, a cell may likely attempt
                 to acquire sources below thresholds that require reports to Federal
                 or state agencies. An NRC staff member stated a concern that a
                 terrorist will “legally” acquire radioactive material.

                         NRC Not Considering Potential Risks

                 NRC used the regulatory analysis as a basis for its draft rule,
                 National Source Tracking of Sealed Sources. Yet, the regulatory
                 analysis was based on unreliable data from the Interim Database
                 and did not provide NRC decision-makers with viable options
                 relevant to the NSTS. An important lesson that directly applies to
                 the NSTS regulatory analysis was learned by the National
                 Aeronautics and Space Administration after the Columbia space
                 shuttle accident. The Columbia Accident
                 Investigation Board (CAIB) found that,
                 "Organizations interested in safety must take
                 steps to guarantee that all relevant information
                 is presented to decision-makers."19 The CAIB
                 also noted that “The investigation uncovered a
                 troubling pattern in which Shuttle Program
                 management made erroneous assumptions
                 about the robustness of a system based on            Source:
                 prior success rather than on dependable              www.nasa.gov
                 engineering data and rigorous testing.” The NSTS regulatory
                 analysis did not bring all relevant information to light because it --

                   1. did not contain viable options and

                   2. was based on unreliable data.

                 As a result, NRC may not account for all byproduct material that
                 represents a risk to the common defense and security and public
                 health and safety. Such risks could result in economic,
                 psychological, and physical harm to the United States and public.

                 The 9/11 attacks had a cascading effect on the United States
                 economy and terrorists have recognized the potential of economic
                 warfare. According to a recent Business Week article, if a dirty

19
 Columbia Accident Investigation Board, National Aeronautics and Space Administration and the
Government Printing Office, Washington, DC, August 2003


                                                  14
                   Audit of the Development of the National Source Tracking System



bomb exploded outside the New York Stock Exchange, economists
estimate the eventual economic losses to be $1 trillion. Moreover,
the most significant risk of an attack with a radiological weapon
somewhere in the world in the next 10 years is from a dirty bomb,
according to the June 2005 results from a United States-sponsored
survey conducted among experts. An American citizen with known
al-Qaeda ties was arrested in Chicago's O'Hare International
Airport in 2002 on suspicion of planning to build and detonate a
dirty bomb in an American city. Law enforcement officials believe
that the suspect was on a reconnaissance mission for a future dirty-
bomb attack.

Radioactive material that is not managed and controlled
appropriately is currently having a large economic impact on the
metal recycling industry. For example, in the United States from
1982 to 2004 there were approximately 34 instances when scrap
was melted containing radioactive material. The cost of
decontamination, disposal, and shutdown losses reached $23
million in a single incident and average in the range of $8 to $10
million in steel mini-mills. The cost of radioactive melt at a large
integrated steel mill is estimated to run as high as $100 million or
more.

If a dirty bomb did not injure many people, it could certainly cause
terror and psychological distress. A radiological weapon made with
comparatively weak radioactive material would be easier to
assemble than a device using powerful material, but still be
disruptive by exploiting public fear of radiation and rousing a
disproportional emergency response. In the wrong hands, even a
relatively small amount of radioactive material can cause the kind of
public fear the United States experienced when anthrax-laced mail
was sent to the Federal Government and media offices.

When radioactive material is managed according to standards in a
safe and secure manner, the radiation risks to workers and the
public are minimized. However, if radioactive material is not
managed appropriately, as in the case of accidents or malicious
use, it can cause a range of deterministic health effects resulting in
acute radiation sickness, permanent injury, or even death.




                            15
                           Audit of the Development of the National Source Tracking System



IV. SUMMARY AND CONCLUSION

        The events of September 11, 2001, changed the world forever. It is
        obvious that we will never live in a risk-free society. However, in
        line with its safety and security mission, NRC has the responsibility
        to take appropriate, meaningful steps to mitigate the dangers
        associated with the uses of radioactive material.

        Tracking radioactive material, more specifically byproduct material,
        will not absolutely ensure physical protection or verify
        independently where all such material is located and that it is safely
        secured. However, if the NSTS is not robust, it will not meet NRC’s
        qualitative values for the system. Those values include improving
        security and control of nationally tracked sources, improving
        regulatory efficiency, enhancing the nation’s common defense and
        security, and increasing public confidence.

        The NSTS was born out of concerns about the effects of a dirty
        bomb, the threat of which became a cause for concern after the
        events of 9/11. Yet, NRC is making significant decisions about the
        scope of the NSTS using unreliable data and without considering all
        viable options.

        Recommendations

        OIG recommends that the Executive Director for Operations –

        1.     Before the NSTS rulemaking is finalized, conduct a
               comprehensive regulatory analysis for NSTS that explores
               other viable options, such as those in the Code of Conduct.
               The regulatory analysis should include an assessment of
               expanding materials tracked in NSTS to contain categories
               3, 4, and 5; aggregation of sources; and bulk material.

        2.     Validate the existing data in the Interim Database to ensure
               that reliable information is used in the NSTS regulatory
               analysis.




                                    16
                        Audit of the Development of the National Source Tracking System



V. AGENCY COMMENTS

       At an exit conference on December 6, 2005, NRC provided
       informal, written comments on the draft audit report. OIG
       incorporated the suggestions as appropriate. On December 20,
       2005, OIG audit staff met with agency officials and further
       discussed the report. On January 9, 2006, OIG issued a formal
       draft report and on February 1, 2006, NRC provided formal written
       comments. OIG incorporated those comments, as appropriate, into
       the final report.




                                 17
      Audit of the Development of the National Source Tracking System




[Page intentionally left blank.]




               18
                         Audit of the Development of the National Source Tracking System


                                                                           Appendix A
SCOPE AND METHODOLOGY


       The overall purpose of this audit was to determine whether NRC's
       oversight of byproduct and sealed source material provides
       reasonable assurance that licensees are using the materials safely
       and account for and control the materials. Because the objective
       covers such a broad scope, we narrowed our review and the focus
       of this report to determine if the National Source Tracking System
       (NSTS) will provide an effective oversight means to track all phases
       of the life cycle of byproduct material.

       In order to fulfill its objective, the OIG audit team reviewed and
       analyzed relevant legislation, such as the Atomic Energy Act and
       the Energy Policy Act of 2005. The audit team also reviewed and
       analyzed International Atomic Energy Agency guidance – expressly
       its technical reports and the Code of Conduct.

       The OIG audit team reviewed and analyzed documented materials
       including NRC guidance, speeches, and reports. Specifically, the
       audit team analyzed and compared NRC’s Regulatory Analysis
       Guidelines of the U.S. Nuclear Regulatory Commission and the
       associated Handbook to the regulatory analysis that NRC staff
       prepared for the proposed National Source Tracking System. The
       audit team also focused on data in the agency’s Interim Database
       and monitored current events associated with byproduct material.

       The OIG audit team interviewed NRC managers and staff, as well
       people external to NRC. The team met with officials from various
       NRC offices such as the Office of Nuclear Material Safety and
       Safeguards, the Office of Nuclear Security and Incident Response,
       and the Office of the General Counsel. Also, the audit team met
       with officials from the Department of Energy, the National Nuclear
       Security Administration, and the State Department. Further, the
       audit team met with an official from the French Atomic Energy
       Commission, Embassy of France.

       This audit was conducted in accordance with generally accepted
       Government auditing standards and included a review of
       management controls related to the objective of this audit. This
       audit was conducted from February 2005 to September 2005.

       Major contributors to this report are Anthony Lipuma, Team Leader;
       Sherri Miotla, Audit Manager; Michael Cash, Technical Advisor;
       Debra Lipkey, Senior Management Analyst; and R. K. Wild, Senior
       Management Analyst.

                                  19
      Audit of the Development of the National Source Tracking System




[Page intentionally left blank.]




               20
                 Audit of the Development of the National Source Tracking System


                                                                   Appendix B
AGENCY FORMAL COMMENTS




                          21
Audit of the Development of the National Source Tracking System




         22
Audit of the Development of the National Source Tracking System




         23
Audit of the Development of the National Source Tracking System




         24
Audit of the Development of the National Source Tracking System




         25
      Audit of the Development of the National Source Tracking System




[Page intentionally left blank.]




               26
                          Audit of the Development of the National Source Tracking System


                                                                             Appendix C
DETAILED OIG RESPONSES TO AGENCY COMMENTS

        At an exit conference on December 6, 2005, NRC provided
        informal, written comments on the draft audit report. OIG
        incorporated the suggestions as appropriate. On December 20,
        2005, OIG audit staff met with agency officials and further
        discussed the report. On January 9, 2006, OIG issued a formal
        draft report and on February 1, 2006, NRC provided formal written
        comments (see Appendix B). OIG’s responses to NRC’s formal
        written comments are provided after each NRC comment. The
        main point of OIG’s report, which is reiterated in each of OIG’s
        responses, is that the agency’s regulatory analysis for the National
        Source Tracking System rulemaking is based on unreliable data
        and does not include viable options.

        Note: The page numbers used in NRC’s comments do not
        correspond with the page numbers in this report because of line
        spacing differences between the draft report and the final report.

        NRC General Comment 1

        The Office of the Inspector General (OIG) notes that AThe overall
        purpose of this audit was to determine whether NRC=s oversight of
        byproduct and sealed source materials provides reasonable
        assurance that licensees are using the materials safely and
        account for and control the materials.@ The OIG and staff agree
        that the National Source Tracking System (NSTS) is one of many
        elements of the overall program to ensure that appropriate controls
        are implemented around the use of radioactive materials. With
        respect to Category 3 sources, the existing regulatory controls
        include the comprehensive health and safety and environmental
        measures of licensing, inspection, and reporting. As many as half
        of Category 3 sources are individually tracked in the General
        License Tracking System and the remaining Category 3 sources
        are specifically licensed. All Category 3 sources held by the DOE
        meet DOE=s Aaccountable sealed radioactive source@ criteria and
        therefore are inventoried and are subject to added reporting
        requirements.

        NRC has issued orders for additional security measures to certain
        materials licensees with quantities of radionuclides of security
        concern. The orders took into account aggregation and co-location
        of material. These measures, rather than the NSTS, are directly
        concerned with the protection of material to preclude its use in the
        kind of RDD scenarios suggested on pp. 18 and 19 of the draft OIG
        report.

                                   27
                                Audit of the Development of the National Source Tracking System



OIG Response

OIG agrees with the staff comment that security orders consider aggregation and
as such address certain RDD scenarios. However, the staff comments fail to
address the fact that movement of sources in commerce presents opportunities
for covert diversion and aggregation. The security orders do not address these
circumstances.

OIG is not recommending in its report that the NSTS necessarily include
aggregation of curie quantities. Rather, the report highlights the issue of NRC’s
failure to evaluate aggregation as an option in the regulatory analysis. As such,
a viable option has been eliminated from consideration without a supporting
analysis.

OIG also notes that materials licensees currently have possession limits
established in their licenses based on aggregate curie content of each respective
radioactive isotope. As a factual matter, licensees must track the aggregate
quantity of radioactive materials to ensure current compliance with these
possession limits. As a practical matter, licensees should know the aggregate
curie quantities of materials removed or added to their inventories in
transactions. This reality indicates that an aggregate tracking system is a
practical and viable option for consideration.

NRC General Comment 2

The decision of whether or not to include Category 3 sources in the upcoming
rulemaking is pending before the Commission and continues to be addressed by
the staff and by the Radiation Source Protection and Security Task Force
established by the Energy Policy Act. While the Regulatory Analysis does not
include a thorough examination of the costs and benefits of including Category 3
sources, the issue has previously been addressed by the staff, the Working
Groups, the Interagency Coordination Committee, and the Steering Committee
for NSTS, and it is discussed at length in the Federal Register Notice for the
proposed rule.

The Commission has reviewed the NSTS rule and the planned system and
approved publication of the proposed rule (70 FR 43646, July 28, 2005). There
continues to be discussion of whether and how to include Category 3 sources.
That remains an open question for the future but to include them now would
greatly delay deployment of the system, possibly diminishing health, safety, and
security and failing to fulfill the Nuclear Regulatory Commission=s (NRC)
commitments to Congress, other Federal and State agencies, and the
International Atomic Energy Agency (IAEA). The staff is planning to send the
Commission a paper concerning sources below Category 2, including generally
licensed sources, in March. The NSTS has been designed so that its basic
architecture will accommodate Category 3 sources if the decision is made to
eventually include them.

                                         28
                                 Audit of the Development of the National Source Tracking System



OIG Response

The OIG report does not recommend a specific IAEA category for a cut-off point.
As with aggregation, the central point of the OIG report in this regard is that the
regulatory analysis fails to evaluate tracking at all of the Code of Conduct
categories (1-5). As such, viable options have been eliminated from
consideration without a supporting cost benefit analyses.

In addition, as noted above, NRC licensees must not exceed their possession
limits and as a practical matter must track sources beyond categories 1 and 2.

NRC General Comment 3

Staff is now assessing the comments on the pending rulemaking. In parallel,
staff is examining a range of options for improving the overall program to ensure
appropriate controls for sources below Category 2. These options include
specifically licensing all Category 3 sources by placing activity limits on general
licenses, creating an inventory requirement for all Category 3 and above sources,
and requiring source tracking for some sources below Category 2. The staff will
weigh the costs and benefits of any proposed action and any option that includes
rulemaking will include a regulatory analysis.

OIG Response

The agency’s comments support the OIG report recommendation that the staff
review all viable options in the NSTS regulatory analysis prior to promulgating
the final rule. As noted in the OIG report, the purpose of a regulatory analysis is
to ensure that NRC’s regulatory decisions support its statutory responsibilities
and are based on adequate information. Identifying and evaluating alternative
approaches is a key element in meeting the letter and spirit of NRC’s regulatory
analysis policy.

Promulgating a rule with a regulatory analysis that does not address viable
options is inconsistent with the basic precepts of effective and efficient agency
rulemaking.

NRC General Comment 4

The Energy Policy Act of 2005, in Section 170H, establishes an interagency Task
Force on Radiation Source Protection and Security, chaired by Chairman Diaz,
and directs it to report to Congress and the President on recommendations for,
among other matters,

   $ Amodifications to the national tracking system for radiation sources;@
   $ Athe establishment of, or modifications to, a national system (including
     user fees and other methods) to provide for the proper disposal of
     radiation sources secured under this Act;@
                                          29
                                Audit of the Development of the National Source Tracking System



The Task Force, including most of the same agencies that were involved in the
development of the NSTS, will be dealing with concerns on the NSTS at a high
level and can be expected to make recommendations that resolve policy
questions such as those raised in the OIG report.

OIG Response

The overarching issued raised in the OIG report is that the staff did not conduct a
thorough regulatory analysis of all relevant factors associated with the NSTS.
NRC should not leave this important function to the interagency Task Force on
Radiation Source Protection and Security.

NRC General Comment 5

SRM-SECY-05-0201, AImplementation Of the Energy Policy Act of 2005@
requires the staff to again consider including Category 3 sources in the NSTS:

   A6. Section 651(d)(1) Radiation Source Protection, National Academy of
   Sciences Study - This section in the Energy Policy Act contains the definition
   of >Radiation Source,= part B of which states >any other material that poses a
   threat such that the material is subject to this section, as determined by the
   Commission, by regulation....= The staff has asked for comments on the
   inclusion of Category 3 sources, or an appropriate subset of Category 3
   sources, in the National Source Tracking System (NSTS) and the staff should
   carefully consider those comments. If, ultimately, Category 3 sources are not
   included in the NSTS rule, the staff should consider doing so in a separate
   rulemaking and either develop a schedule and cost for this rulemaking or
   document in some manner that a separate rulemaking is not needed and the
   rationale for this statement.@

OIG Response

This report does not focus solely on NRC including Code of Conduct Category 3
sources in the NSTS. Rather, OIG is recommending that the agency conduct the
necessary regulatory analysis to determine which Code of Conduct categories
should be tracked in NSTS. Additionally, NRC’s regulatory analysis should
consider aggregation of sources and bulk material.

NRC General Comment 6

The identification of materials of hazard in the Department of Energy (DOE)/NRC
Joint Report on ARadiological Dispersal Devices@ (RDDs) was intended to guide
assessments regarding a system to track sources. The results can be used to
define the NSTS population and future tracking priorities.




                                         30
                                 Audit of the Development of the National Source Tracking System



The NRC action threshold defined in the DOE/NRC RDD report included
consideration of respirable and release fractions. This threshold roughly equates
to the IAEA Category II definition.

OIG Response

The RDD study did not recommend limiting the National Source Tracking System
to Category 1 and 2 sources. Insights gained from the RDD report should be
included in the regulatory analysis.

NRC Specific Comment 1

p. 10, lines 23-26; p. 11, lines 1-4 - With reference to the citation of the U.S.
Government Accountability Office (GAO) report that NSTS would be of little use
to DOE in recovering and disposing of sources, the NSTS is not designed for this
purpose and it would be impractical in terms of costs and benefits to alter it to
serve the purpose. Reporting of unwanted sources is primarily a licensee
responsibility. NRC works with the States, Council of Radiation Control Program
Directors, the Organization of Agreement States, and DOE to secure unwanted
or abandoned sources.

As NRC commented to GAO, requiring the reporting of certain information which
the report asserts DOE would find useful (e.g., frequency of source use) could be
extremely burdensome on licensees and the NRC, and would yield little, if any,
practical benefit. The NSTS will be of use to DOE in locating and recovering the
most dangerous sources, those in Category 1 and Category 2 with the highest
activity. Those sources account for approximately 86 percent of the total activity
recovered by DOE. This is a risk-informed approach, consistent with NRC=s
regulatory philosophy.

It is also important to note that DOE, through its representatives on the NRC
working group, steering group, and interagency coordination committee
developing the proposed NSTS, has had the opportunity to provide input on the
design of the system and the potential usefulness of the system to assist it in its
source recovery program. DOE was provided a copy of the draft rule and sent it
out to their facilities. They and other stakeholders have had an additional
opportunity to comment on these and other issues raised in the notice of
proposed rulemaking published July 28, 2005.




                                          31
                                  Audit of the Development of the National Source Tracking System




OIG Response

OIG is aware of the working relationship that NRC has with the States, Council of
Radiation Control Program Directors, the Organization of Agreement States, and
DOE regarding the securing of unwanted sources. OIG is not suggesting in its
report that NSTS be used for the purpose of securing unwanted sources.
However, the report does call to attention that because aggregation or the co-
location of sources is not being considered for NSTS, the combined activity
posed from individual sources (above the Code of Conduct Category 2
threshold) may still pose a safety and security risk. Refer to Figure 3 in the body
of this audit report for a diagram showing the potential results if aggregation is
not considered in NSTS. While NRC states its decision is made using a risk-
informed approach, evidence of this “approach” is not provided in the NSTS
regulatory analysis.

The report text remains unchanged.

NRC Specific Comment 2

pp. 12-14 - At the end of FY 2004, the Interim Database had about 5,000
Category 1 and Category 2 sources, rather than the 3,600 cited in the OIG
report. It presently has over 15,700 sources. Reporting has improved over time
but it continues to be voluntary until the final rule requiring reporting is in effect.

On p. 13, the report states that ANRC cannot reasonably estimate the number of
radioactive sources in the United States for each of the Code of Conduct
categories.@ The staff disagrees; the information available in the Interim
Database has improved and is certainly adequate for the present purpose of
designing the NSTS. It would not be possible to have more precise or extensive
information on sources without the mandatory reporting which will be required by
the final rule.




                                           32
                                   Audit of the Development of the National Source Tracking System




OIG Response

OIG cited 3,600 sources in the report because that is the number that agency
staff used in developing the NSTS Regulatory Analysis (see page 7, section
3.2.2.2 of the NSTS Regulatory Analysis). As NRC clearly points out in its
comment, the data used from the Interim Database to develop the NSTS
Regulatory Analysis is unreliable. At the time the NSTS Regulatory Analysis was
being developed, the staff used data from the Interim Database which contained
approximately 23 percent of the estimated 15,700 Category 1 and/or 2 sources.
NRC’s comment further validates OIG’s recommendations.

The Interim Database contains data on Code of Conduct categories 1 and 2
sources. Therefore, NRC has no scientifically reliable means of determining the
number of sources in categories 3, 4, and 5, based on estimates of the sources
in categories 1 and 2.

The report text remains unchanged.

NRC Specific Comment 3

p. 18, lines 13-16; p. 20, lines 20-22 - We suggest replacing these three
sentences with the following: ANRC has considered the full range of radioactive
sources that must be accounted for and based on its risk-informed approach to
the safety and security of radioactive sources, has decided to track the
Categories 1 and 2 sources recommended in DOE/NRC joint studies and the
IAEA Code of Conduct. A tracking system will improve source accountability and
foster greater control over radioactive sources. It will help deter and detect
source loss or theft, reducing the possibility of use in an RDD, but it will not, itself,
provide any additional physical security.@

OIG Response

The OIG has considered this proposal but has chosen to maintain the passages
in the report. Although the staff may have considered a range of sources that
should be accounted for, such options have not been explored or documented in
the regulatory analysis. In addition, although the staff states that the approach is
risk-informed, OIG has not been presented with any documentary evidence of a
risk assessment. OIG has not been presented with any form of analysis
supporting the claim that the cost and burden of tracking sources in categories 3,
4, and/or 5 are not justified. The only supporting evidence included in the
rulemaking is unsupported statements to that effect as well as anecdotal
representations from commenters. This is not sufficient for the OIG to adopt the
proposed wording changes recommended by the staff.

The report text remains unchanged.


                                            33
